     Investigative Report
                                               Pensus, Inc.


                                       Report Date: March 2, 2011
                                    Date Posted to Web: March 3, 2011




   This report contains information that has been redacted pursuant to 5 U.S.C. §§ 552(b)(6) and (b)(7)(C) of the
Freedom of Information Act. Supporting documentation for this report may be obtained by sending a written request
                                     to the OIG Freedom of Information Office.
                                           SYNOPSIS

Congressman Mike Thompson, 1st District of California, requested an investigation of the
Bureau of Reclamation’s (USBR) concession contract award to Pensus, Inc. (Pensus) at Lake
Berryessa in Napa County, CA. In his letter to the Acting Inspector General, the Congressman
noted several concerns received from his constituents about the integrity of the USBR contract
process. The Congressman questioned if Pensus received information that gave it a distinct
advantage over other bidders and if Pensus modified its proposal after bids had been received
and opened.

The complainants, John and Linda Frazier, bid on the USBR Lake Berryessa concession
contracts. The Fraziers provided a document stating several concerns. We investigated only those
issues not previously litigated during a 2007 U.S. Court of Federal Claims case.

We focused on whether USBR complied with the law and public policy in entering into a
concession contract with Pensus, devised a false motive to re-bid the contract, or engaged in
collusion with Pensus during the contract solicitation and award process.

We found no evidence that USBR violated the law or public policy in regard to the contract
solicitation and award to Pensus for the Lake Berryessa concession contracts. We did find,
however, that the Office of the Solicitor determined that as a result of incorporating inapplicable
provisions from National Park Service statutes into its concession contract guidance manual,
USBR unintentionally promised to pay the concessionaire with funds that it would not have the
statutory authority to pay.

                                        BACKGROUND

Lake Berryessa is the reservoir for the Bureau of Reclamation’s (USBR) Solano Project, which
provides flood control protection to the City of Winters, CA, and other downstream communities
and farmlands. The Secretary of the Interior authorized the Solano Project on November 11,
1948, under terms of the Reclamation Project Act of 1939, for irrigation, municipal and
industrial water supply purposes, and incidental flood control. Construction for five dams began
in 1953, which were all completed by 1959, creating Lake Berryessa.

In recognition of growing recreational use of the lake, USBR entered into a management
agreement with Napa County, CA, in 1958 to administer the recreational development of
Federally-owned property at Lake Berryessa.

Napa County awarded seven 30-year concession contracts in 1958 and 1959 for recreation
services on 1,700 acres of land and water at Markley Cove, Pleasant Cove, Steele Park, Spanish
Flat, Lake Berryessa Marina, Rancho Monticello, and Putah Creek. Napa County used revenue
from these contracts to fund recreation management at Lake Berryessa.

Public Law 96-375, enacted in 1980, authorized the Secretary of the Interior to extend the
original 30-year contracts at the request of the concession contractors for no more than two
consecutive terms of 10 years each. The original contracts were otherwise due to expire in 1988
and 1989. The Secretary extended the contracts for two terms. The contracts were due to
permanently expire in 2008 and 2009. 1

June 2007: First Prospectus and Bidding Process

In June 2007, USBR issued a prospectus to solicit bid proposals from individuals or companies
for the continuation of the development, operation, and maintenance of the seven Lake Berryessa
visitor services and recreation facilities.

In April 2008, USBR notified Forever Resorts for the operation of the Pleasure Cove concession;
Pensus, Inc. (Pensus) for the Putah Creek, Steele Park, Spanish Flat, Lake Berryessa Marina, and
Rancho Monticello concessions; and John and Linda Frazier for the Markley Cove concession
that their bid proposals had been conditionally selected. Pensus included the Markley Cove
concession in its original bid proposal.

USBR immediately entered into contract negotiations with Forever Resorts because their
contract was set to expire soonest. USBR decided to enter into contract negotiations with Pensus
next since four of their five existing concession contracts were set to expire in the summer of
2008. USBR decided to enter into contract negotiations with the Fraziers last because the
Markley Cove contract did not expire until May 2009.

USBR entered into a contract with Forever Resorts for the Pleasure Cove concession in
December 2008 and completed contract negotiations with Pensus in January 2009, pending final
review and approval by DOI’s Office of the Solicitor (SOL). During review of Pensus’ contract,
SOL identified legal flaws that would put USBR at risk of violating the Antideficiency Act. The
Antideficiency Act is a law through which Congress exercises its constitutional control of the
public purse. It evolved over a period of time in response to various abuses. The Antideficiency
Act prohibits making or authorizing expenditure from, or creating or authorizing an obligation
under, any appropriation or fund in excess of the amount available in the appropriation,
involving the Government in any obligation to pay money before funds have been appropriated
for that purpose.

SOL identified language in the contract that promised that USBR would pay the concession
contractor with funds it did not have. As a result, SOL advised USBR to rescind the June 2007
prospectus and all associated agreements on February 26, 2009, and requested that the
prospectus be revised. They recommended that USBR start the entire bidding process again.
USBR canceled contract negotiations with Pensus and with the Fraziers in March 2009. USBR
did sign an interim contract with the Fraziers for the operation of the Markley Cove concession
on May 26, 2009, that extended the concession operation to May 2013.




1
United States, U.S. Department of the Interior, Bureau of Reclamation, “Record of Decision: Future Recreation Use and
Operations of Lake Berryessa, Solano Project,” Napa County, CA, June 2, 2006, Sacramento, CA, Print.
May 2009: Revised First Prospectus (Re-Bid)

USBR’s revised prospectus, soliciting bid proposals for the six remaining Lake Berryessa
concession areas, was released to the public on May 15, 2009. Bid proposals were due by
September 30, 2009. USBR received five separate bid proposals, including one from the Fraziers
and one from Pensus, on September 30, 2009.

USBR’s review panel deliberated on the bids submitted under the revised prospectus between
October 2009 and January 2010 and selected Pensus as having the best proposal for all six
remaining concession areas, including Markley Cove.

                               DETAILS OF INVESTIGATION

In a May 17, 2010 letter to the Acting Inspector General, Congressman Mike Thompson, 1st
District of California, requested an investigation into the Bureau of Reclamation’s (USBR)
concession contract award to Pensus, Inc. (Pensus) at Lake Berryessa, Napa County, CA.
Congressman Thompson conveyed several concerns from John and Linda Frazier,
concessionaires of USBR’s Markley Cove Resort, questioning the integrity of USBR’s Lake
Berryessa concession contract bidding process.

U.S. Court of Federal Claims – John C. Frazier v. The United States

On August 28, 2007, 5 business days before bids were due for the June 2007 Request for
Proposal, the Fraziers and three other concessionaires at Lake Berryesssa filed a pre-award bid
protest complaint.

In this case, the plaintiffs alleged that the June 2007 prospectus failed to comply with Public Law
96-375. They found fault in the way the prospectus addressed compensation to plaintiffs from
the new concessionaires and believed that the June 2007 prospectus favored a prospective bidder
on the new concession contracts, disfavored the old concessionaires, and showed favoritism
toward larger businesses, which is contrary to USBR policy and directives.

The complainants also raised similar allegations in a complaint document submitted to
Congressman Thompson, which he forwarded to the DOI-OIG for investigation.

On November 7, 2007, the U.S. Court of Federal Claims ruled in favor of USBR on all counts.
The plaintiffs immediately filed an appeal of the lower court’s decision against the plaintiffs, and
in August 2008, the U.S. Court of Appeals affirmed the lower court’s decision.

June 2007: Prospectus Bid Award

John and Linda Frazier partnered with two other companies and submitted bids for three of the
seven Lake Berryessa concession areas and an independent bid for Markley Cove. The Fraziers
said they hired a consulting group specializing in grants and contract bid proposals for the
submission of both bids, and they paid approximately $100,000 to the consulting group.
The Fraziers submitted their bid proposals to USBR in November 2007. The Fraziers said they
received a formal letter from the Acting Regional Director in April 2008 that stated that they
were conditionally awarded the bid for the Markley Cove concession.

Within the same week, Linda Frazier recalled that USBR Park Manager Pete Lucero called to
congratulate her on winning a bid proposal and said her proposal for Markley Cove was very
good. Frazier said Lucero told her that USBR would first negotiate contracts with Forever
Resorts and with Pensus before beginning contract negotiations with the Fraziers because the
existing contracts with Forever Resorts and Pensus were set to expire before Markley Cove’s
contract. The Fraziers understood USBR’s rationale and agreed to wait.

USBR Park Manager Pete Lucero stated that being notified as having one of the best proposals
means that the bidder has reached the next step of the concession contract bidding award process,
not that the bidder was actually awarded a contract. Lucero explained that the next step, contract
negotiation, can take several months to complete. He clarified that a contract is not considered
awarded until after both parties sign. Lucero said that Pensus had the best proposal on five of the
seven concession contract bid submittals and that four of Pensus’ five proposed concessions had
existing contracts all set to expire in the summer of 2008.

USBR Area Manager Michael R. Finnegan stated that while he was the acting regional director,
he sent the Fraziers a letter on April 2, 2008, informing them that they submitted the best
proposal for the operation of the Markley Cove concession. Finnegan recalled cautioning the
Fraziers and said he wrote in his letter that several additional steps must be taken before the
concession contract may be formally awarded: elements of the best proposal must be
incorporated into the concession contract and any additional negotiation must be finalized, the
Office of the Solicitor must review the final contract for legal sufficiency, and all parties must
execute the concession contract. Finnegan emphasized that only then will the concession contract
be considered awarded. Finnegan said that the prospectus stipulated that USBR’s selection of a
winning proposal was conditional, pending final negotiation and clarifications.

Finnegan did not participate in the June 2007 bid review or selection process. After careful
review of the proposals, however, Finnegan retrospectively opined that the review panel
misinterpreted the evaluation criteria. Finnegan said the review panel selected the Fraziers as
having the best proposal for the Markley Cove concession only because it misinterpreted the
Record of Decision and failed to seek clarification. Finnegan explained that the review panel had
misinterpreted the “continuity of operations” provision in the Record of Decision to mean that
there must be zero impact on the continuity of business operations at the Markley Cove
concession during the new concession contractor’s transition phase.

Finnegan opined that this misinterpretation by the review panel guaranteed the selection of the
existing contractor, the Fraziers, as having the best bid proposal for the Markley Cove
concession. Finnegan stated that he was one of the authors who prepared the Record of Decision
and indicated that the review panel’s interpretation of its “continuity of operations” provision
requiring a zero impact on the continuity of operations was wrong. Finnegan emphasized that if
not for the panel’s misinterpretation, Pensus would have been selected as having the best
proposal for the Markley Cove concession.
Pensus Contract Negotiations

The Fraziers stated that USBR and Pensus reached an impasse after more than 10 months of
contract negotiations because Pensus refused to execute a contract substantially similar to its
sample draft contract attached to the prospectus.

The Fraziers opined that Pensus was upset that USBR removed the Markley Cove concession
from its submitted bid proposal. Linda Frazier stated that soon after USBR announced the
winning bid proposals, a principal from Pensus approached her and said he would like to meet
her since they would be “partners” at Lake Berryessa. Frazier said she met the principal for
lunch, at which time he told her that he and his colleagues were upset that Pensus was not
awarded the Markley Cove concession. Frazier recalled him asking her if Markley Cove was for
sale, to which she replied that everything is for sale for the right price and told him that USBR
appraised Markley Cove at $6.5 million. Frazier told us that he responded that he would never
pay that amount for her resort. She opined that he set up this meeting solely to determine whether
Markley Cove could be bought cheaply and that he sought other options when he realized that it
was not for sale.

Lucero said USBR and Pensus reached an agreement to the terms of the contract after 10 months
of negotiations for the five Lake Berryessa concession contracts and that the parties were ready
to sign the contract pending a legal review and approval. Lucero believed that the contract
negotiations between USBR and Pensus were appropriate until the Office of the Solicitor (SOL)
pointed out the flawed concession guidelines.

Finnegan stated that USBR removed Markley Cove from Pensus’ first proposal because it
determined that the Fraziers’ proposal was the best. As a result, Finnegan said that his staff
reconvened with Pensus to reformulate the bid proposal for five concessions rather than six.
Finnegan recalled that Pensus reformulated its entire bid proposal because it relied on projected
revenue from the Markley Cove concession as part of its investment. Finnegan stated that
USBR’s reformulation of the Pensus proposal was time consuming and was part of the reason
that contract negotiations took so long.

USBR Deputy Area Manager Rick Johnson, now retired, said Pensus’ contract negotiations
dragged because Pensus wanted to change several draft contract provisions and that Pensus took
considerable time reformulating its original bid proposal.

Johnson emphasized that even though USBR would have liked to complete negotiations with
Pensus sooner, the “going back and forth” was all part of the process. USBR wanted to complete
negotiations with Pensus before the existing contracts expired so that the resorts would not have
to be closed. Johnson indicated that, to his knowledge, no one from Pensus expressed feeling
upset or angry for not being awarded the Markley Cove bid.

June 2007 Prospectus Rescission and Forever Resorts’ Contract

The Fraziers said they were scheduled to start contract negotiations with USBR in February
2008. Linda Frazier recalled that someone from the USBR park manager’s office called to
inform her that USBR had to cancel its scheduled meeting because of an emergency. Frazier said
Finnegan called in March 2008 to tell her that USBR needed to meet with them as soon as
possible and suggested they invite their attorney.

Linda Frazier stated that this meeting was held at the Lake Berryessa USBR office with
Finnegan, Lucero, the USBR Park Manager, a SOL Attorney-Advisor, John and Linda Frazier,
and the Fraziers’ attorney. Linda Frazier stated that during this meeting, the Attorney-Advisor
informed them that, after reviewing the June 2007 Request for Proposal, the prospectus was
flawed and that all awarded bids would have to be rescinded and resubmitted under a new
prospectus.

During the meeting, the Fraziers stated that they knew Forever Resorts completed contract
negotiations for the Pleasure Cove concession and signed its contract with USBR in late
December 2007 under the same prospectus that USBR identified as flawed. The Fraziers said the
SOL Attorney-Advisor informed them that everyone, including Forever Resorts, would have
their contract award rescinded and would have to re-bid.

The Fraziers said they knew that USBR relented after Forever Resorts’ attorney threatened to
sue. Linda Frazier said that Forever Resorts’ attorney told her that he believed they had a strong
case against USBR and strongly suggested legal action. The Fraziers said they did not have the
financial resources to pursue a legal fight. They said they should be allowed to keep their
contract if USBR permitted Forever Resorts to keep its contract, and that Finnegan and the
USBR Park Manager both told them at the meeting that they had nothing to worry about because
their first bid proposal was outstanding.

The Fraziers’ attorney suggested that USBR simply “red-line” the “flawed” provisions, but the
Attorney-Advisor said that would be unfair to the losing bidders and that the only fair alternative
was to re-do the process. The Fraziers recalled that the Attorney-Advisor tried to explain the
Antideficiency Act issue, but his explanation was incomprehensible.

The Fraziers emphasized to the Attorney-Advisor that the concession contracts extend for 30
years and that the Antideficiency Act problem is “down the line.” The Fraziers did not
understand why USBR could not red-line the flawed provision.

The Fraziers said their attorney requested that the SOL Attorney-Advisor and USBR send them a
formal, written explanation regarding the alleged flaw and the Antideficiency Act issues. The
Fraziers said they received a formal letter from the Attorney-Advisor a month later but never
received a letter from USBR explaining why it rescinded their contract award. The Fraziers
stated that they made several requests for USBR’s written explanation, but they never received
one.

A former USBR Park Manager said she and other USBR employees were upset that the bidding
process had to be rescinded. The Park Manager said Linda Frazier called her after learning the
decision. She remembered that Frazier was crying and was upset about having to re-do the
bidding process. The Park Manager recalled that Frazier said she did not know if they would re-
bid. The Park Manager said she praised the Fraziers’ proposal and encouraged them to bid again.
USBR Area Manager Michael R. Finnegan emphasized that USBR always intended to complete
negotiations with the Fraziers, but when SOL identified the legal flaws, USBR was faced with
two options. Finnegan stated that USBR could either remove the provision that violated the
Antideficiency Act, then renegotiate the contract with Forever Resorts and allow Pensus and the
Fraziers to reformulate their proposals, or rescind all of the June 2007 Request for Proposal
submittals and start the bidding process again, except for Forever Resorts’ contract. Finnegan
stated that USBR’s upper management decided to rescind the Fraziers’ and Pensus’ bid proposal
selections based on the advice and counsel of SOL.

USBR Deputy Area Manager Rick Johnson said USBR relies on recommendations and advice
from SOL on legal matters. He said the bid evaluation process was explained to the Fraziers
several times by different USBR representatives and SOL. Johnson said that because the process
was complex and complicated, more than likely it did not make sense to the Fraziers.

Johnson said he met Linda Frazier twice but never met her husband. Johnson said he first met
Linda Frazier not long after she learned of SOL’s recommendation to rescind USBR’s June 2007
Request for Proposal. Johnson remembered that during this meeting, Frazier was extremely
upset. Johnson stated that he expressed his condolences and told her that she would have to re-
solicit her bid.

Johnson said he listened to Linda Frazier explain why she believed it was unfair, and he
suggested she put her concerns in writing. Frazier told Johnson that she did not want to put
anything in writing because she did not want to get on USBR’s “bad side” before she re-solicited
her bid proposal.

Johnson reassured her that USBR’s bidding process undergoes a series of review panels,
independent to each phase of the bidding process to ensure objectivity and fairness. The review
panels were comprised of experts from around the country who had no vested interest in the
identities of the Lake Berryessa concession contract awardees.

USBR Western Regional Director Donald R. Glaser stated that he did not participate in the Lake
Berryessa bid evaluation process but does not recall Pensus using any type of leverage to get
USBR to award it the Markley Cove Resort concession contract. Glaser also could not recall any
information indicating that Pensus was upset at USBR for removing the Markley Cove Resort
Concession from its proposal.

Glaser did not know if the Pensus negotiation was comparatively longer than other contract
negotiations. Glaser knew that after the lengthy negotiations were completed, USBR and Pensus
entered into a contract that was forwarded to SOL for review and approval.

Glaser said everyone within USBR who participated in the June 2007 prospectus bid evaluation
and selection process was surprised and disappointed to learn there were problems with the
prospectus and that the selections would be rescinded. Glaser said that he and other USBR
employees were looking forward to signing a long-term contract with the Fraziers.

Glaser said he was concerned for the outcome of the June 2007 prospectus bid evaluation and
selection process. He said re-soliciting the proposals interrupted recreation services at Lake
Berryessa and was disappointing to all interested parties. He said the situation also appeared
unfair from the Fraziers’ point of view. Glaser met with the Fraziers several times and listened to
their concerns. Glaser said he took the Fraziers’ concerns seriously and told them that he would
conduct an independent review of the bid evaluation, the selection process, and the decision to
rescind the June 2007 prospectus. Glaser stressed that he was committed to the Fraziers’ and
Congressman Mike Thompson’s interests to ensure that all options were considered and
decisions were made objectively, fairly, and according to policy and procedure.

Glaser stated that during his independent review, he interviewed all of the individuals who
developed and wrote the June 2007 prospectus and the Directives and Standards, and spoke to
several attorneys from SOL. Glaser concluded that SOL’s recommendation to rescind the June
2007 prospectus was consistent with USBR procedures and applicable law.

Glaser said the Fraziers made their feelings of disappointment known when he revealed his
findings. He opined that they were somewhat offended by his conclusions, and “put off” that the
outcome did not go their way. Glaser also remembered that they were disturbed by his use of the
phrase “legal[ly] insufficient” when referencing the flaw identified by SOL.

To his knowledge, Glaser said no one from USBR colluded with Pensus to ensure that it received
the Markley Cove Resort concession. Glaser understood that one of the Fraziers’ concerns was
that USBR had intentionally changed certain provisions in the second prospectus to favor Pensus
during the re-bid process. Glaser admitted that the second prospectus differed from the first, but
he opined that after a thorough examination of both, he did not find evidence suggesting the
changes made in the second prospectus gave an unfair advantage to any bidder, including
Pensus.

Glaser explained that the process of drafting the second prospectus was fair and objective and
incorporated independent, multi-agency teams. Glaser said changes were made to certain
provisions in the second prospectus because the second team of evaluators and writers, who did
not participate in the drafting of the first prospectus, thought that more detailed clarification
would better protect the public’s interests and aid in the solicitation process. Glaser reiterated his
belief that the changes in the second prospectus were not the reason the Fraziers were not
selected as having the best proposal in the second bid evaluation process.

USBR’s Approach to the Antideficiency Act Issue

Lucero explained that several weeks after USBR and Pensus finished contract negotiations and
were ready to sign the contract in 2007, a SOL Attorney-Advisor informed him and Finnegan
that USBR was making promises in the contract that it could not fulfill.

Lucero believed that Glaser and J. William McDonald, Acting Commissioner, USBR, decided to
rescind all of the Lake Berryessa concession contracts and start the bidding process again based
on guidance and counsel from SOL. Lucero said Forever Resorts’ Pleasure Cove concession
contract was the only contract not rescinded, but he could not recall why.
Finnegan stated that he believed a severability clause prevented the Forever Resorts contract
from being rescinded. Finnegan understood that the severability clause allowed the parties to
mutually agree to remove the Antideficiency Act violation provisions without rescinding the
contract. Finnegan added that the parties completed negotiations and entered into a legal binding
contract. As required, USBR posted Forever Resorts’ bid proposal on the Internet, including its
development plan for the Pleasure Cove concession.

The SOL Attorney-Advisor said he “flagged” a clause in the Forever Resorts contract that may
violate the Antideficiency Act for USBR’s policy department. The Attorney-Advisor stated that
in this clause, USBR promised to pay Forever Resorts “X” amount of money at the end of the
30-year contract with funds that it did not have the statutory authority to pay. He also said he
explained his concerns in a memorandum to his supervisor, John Bezdek in Washington, DC. In
the December 1, 2008 memorandum, the Attorney-Advisor stated:

       I examined the proposed contract [for Forever Resorts] and, given the lack of statutory
       limits, found no violation of statute or other fundamental flaws that would invalidate the
       contract as a whole. A number of ambiguously drafted provisions have been highlighted
       though. Additionally, a provision seemingly guaranteeing future interest payments to the
       contractor may well run afoul of the Antideficiency Act, and Exhibit A may merit further
       review by the Division of General Law to verify that it adequately addresses all the
       current discrimination statutes.

The Attorney-Advisor said he believed his involvement in the Lake Berryessa concession
contract selection process began once he expressed his legal opinion to Bezdek and to the
Denver USBR office regarding Forever Resorts’ contract. He said USBR signed the contract
with Forever Resorts despite his concerns, opining that it was signed because he may not have
“waved the flag hard enough” or possibly because of perceived tension between SOL and USBR.

The Attorney-Advisor also stated that from a statutory standpoint, there are no detailed
parameters for structuring concession contracts, so “things can become a little fuzzy.” He said
the procedures for dealing with concession contracts are not well defined or tested because
USBR does not have many of these contracts and SOL rarely reviews them. The Attorney-
Advisor opined that USBR may not have given his concern about the clause in violation enough
attention.

The SOL Attorney-Advisor stated that he was asked to review the Pensus contract for legal
sufficiency in January 2009. He said he thought, “Do I need to wave the same flags?” He said
Pensus’ contract was very similar to Forever Resorts’ contract in regard to the Antideficiency
Act violation.

The SOL Attorney-Advisor stated that he reviewed Pensus’ contract and “flagged” the same
issues as he had in Forever Resorts’ contract. He said he explained in more detail how
problematic it can be to violate the Antideficiency Act. This time, the seriousness of the problem
“stuck” with them. “It took a while for the Antideficiency Act issue to bubble to the top,” he
said. He sent an email to Bezdek on February 24, 2009, detailing his legal opinion:
       Clauses in a recently signed concession contract [for Forever Resorts-USBR] and an
       unsigned draft contract [for Pensus-USBR] may violate the Antideficiency Act by
       promising payments in 2038. These clauses have their roots in a prospectus that was used
       in a competitive bidding process. Given that the contracts cannot proceed as is, how
       should Reclamation remedy the situation?

The SOL Attorney-Advisor explained in his email that the root of the contract’s Antideficiency
Act problem stemmed from the initial 2007 prospectus. USBR’s regional office in Sacramento,
CA, created the prospectus using a guidance manual titled “Reclamation Concession
Management Guidance” developed in April 2005. USBR developed this guidance manual using
the National Park Service (NPS) Concession Contract Guidance Manual as a “go-by” document
and replicated a number of NPS provisions.

During his review of Pensus’ contract, the SOL Attorney-Advisor stated that he discovered that
USBR’s concession contract guidance manual incorporated inapplicable provisions from NPS
statutes. He explained that USBR’s concession contract guidance manual incorporated a statute
that promised the concessionaire “X” amount of money at the expiration of the contract,
determined by improvements made to the concession during the contract, with funds that it
would not have the statutory authority to pay. He went on to say that unlike NPS’s concession
program, USBR’s concession program is administered with little statutory or regulatory
guidance. He added that USBR added its own interpretation of the NPS statute that created
additional legal problems in Pensus’ and Forever Resorts’ contracts.

The SOL Attorney-Advisor indicated that in January 2009, SOL and USBR reviewed several
options for how to remedy Forever Resorts’ and Pensus’ flawed contracts and debated with SOL
attorneys in the Land and Water Division. He said he sought the advice and assistance of DOI’s
Division of General Law attorneys who specialize in contract law and have extensive experience
in concession contracts with NPS.

The SOL Attorney-Advisor explained that the attorneys had to decide what to do with a situation
having one signed concession contract, one draft contract for which both parties had agreed to
terms, and one concessionaire selected as having the best proposal but with whom contract
negotiations had not begun, all negotiated using a legally flawed prospectus and guidance
manual. He recalled that on February 26, 2009, they decided to rewrite the prospectus, rescind
Forever Resorts’ contract, and re-do the bidding process.

He said they discussed renegotiating the three best proposals. He stated all of the reviewing
attorneys agreed that since the second prospectus would substantially differ from the first
prospectus, that option would be unfair to the losing bidders from the first bidding process
because they might have submitted a bid that differed from their original.

The SOL Attorney-Advisor said he notified USBR of their decision on February 28, 2009, and
that USBR made known its preference for reformulating the three best proposals or contracts and
simply removing the clause that violated the Antideficiency Act. He said that on March 13, 2009,
he, Lucero, Finnegan, and Richard Rizzi, Manager, Land Resource Office, USBR, met with
representatives from Forever Resorts and from Pensus to inform them of the decision to rescind
Forever Resorts’ signed contract and cancel Pensus’ draft contract, and notify them that they
would have to re-bid under a new prospectus. On March 16, 2009, they met with the Fraziers to
inform them that their best proposal selection for the Markley Cove concession was canceled,
and that they also would have to re-bid under a new prospectus.

The SOL Attorney-Advisor said Forever Resorts’ attorneys argued that their signed contract
should not be rescinded because it had a severability clause that allowed USBR to remove the
portion of the contract that violated the Antideficiency Act. Forever Resorts had a legally
binding contract, while Pensus and the Fraziers did not, which made rescinding Forever Resorts’
contract more difficult. He said the difference between Pensus’ draft contract and Forever
Resorts’ signed contract was like “breaking up with someone versus getting a divorce.”

He said that Forever Resorts’ attorneys also raised the issue that since the contract was finalized
and signed by both parties, its business plan, which they considered proprietary information, had
already been released to the public. Forever Resorts’ attorneys argued that if they had to re-bid
their winning bid proposal using the same business plan, they would be seriously disadvantaged
because their competitors would know their plan. He said that his office ultimately decided that
rescinding Forever Resorts’ contract would put USBR at risk for being sued.

The SOL Attorney-Advisor personally believed that Forever Resorts, Pensus, and the Fraziers
should have been allowed to renegotiate their winning bid proposals or draft contracts by simply
removing the Antideficiency Act flaw. He concluded, however, that the ultimate decision to
rescind all but one of the contracts was warranted and justified based on the circumstances.

USBR’s Approval of the Fraziers’ Purchase of a Closing Resort’s Inventory

Finnegan said USBR was under tremendous pressure from Congressman Thompson’s office, the
City of Winters, CA, and the surrounding community to smoothly transition between the
expiring and the new contracts. Finnegan emphasized that failing to maintain the continuity of
Lake Berryessa’s recreation would have a huge economic impact on the City of Winters.
Finnegan said USBR developed a transition plan in July 2008 and provided a framework for
recreation services at the remaining three concession areas, including Markley Cove, as interim
stopgap measures.

As part of the plan, USBR approached the concession contractors, including the Fraziers, whose
contracts were not set to expire until May 2009 to determine their interest in promoting or
enhancing additional services at their concessions during the remainder of their contracts.

The Fraziers stated that David Web, the former operator of the Lake Berryessa Marina Resort
concession, asked the Fraziers if they wanted to purchase some of his inventory, including
approximately 120 boat slips. The Fraziers inspected Web’s boat slips and determined that they
were in very good condition, and that the asking price of $420,000 was a “steal.” Linda Frazier
informed us that a single boat slip does not sell for less than $7,000 in today’s market.

The Fraziers said that once they decided to purchase and transport Web’s boat slips from Lake
Berryessa Marina to Markley Cove, they submitted a project proposal that USBR approved.
Linda Frazier stated that the USBR Park Manager informed them she was pleased they were
purchasing the boat slips, but also that USBR wanted them to take over Web’s customers, who
were upset about losing their boat slips at Lake Berryessa Marina. The Fraziers said fulfilling her
request would be difficult because Markley Cove had a waiting list of its own customers, but
they agreed to accommodate as many of Web’s customers as possible.

Finnegan recalled that the Fraziers approached USBR and suggested purchasing 120 used boat
slips from the Spanish Flat Resort, one of the closing resort areas, and that USBR approved the
purchase. He opined that the used boat slips were in poor condition, but after calculating the
numbers, he said the Fraziers would have profited between $600,000 and $800,000 by the time
their interim concession contract expires in May 2013.

Lucero stated that USBR was aware that several Lake Berryessa concessions would close in
2008 for the duration of the 2009 recreational season because of lengthy negotiations for new
concession contracts. Lucero recalled that USBR did not want most of the inventory because it
was in poor condition, so USBR notified several existing concessionaire contractors of the
opportunity to purchase from closing resorts. Lucero said he did not know if the Fraziers were
one of the concessionaires USBR notified, and he did not witness any conversation encouraging
them to purchase a closing resort’s inventory.

The former USBR Park Manager said she did not encourage or persuade the Fraziers to purchase
anything from the closing resorts nor did she encourage Linda Frazier to increase her new bid
proposal. She said, “I would never do that. As the park manager, that would be like shooting
myself in the foot.” She opined that Linda Frazier may have misinterpreted USBR’s July 2008
transition plan asking Lake Berryessa concessionaires to provide additional services.

Finnegan reiterated that USBR’s only objective when informing the existing concessionaires
about the opportunity to purchase inventory from the closing resorts was to maintain the
continuity of the lake’s recreational services. He said there was no nexus between USBR’s
transition plan and USBR’s evaluation of the bid proposals.

The Fraziers admitted that USBR did not initiate or encourage them to purchase Web’s boat
slips. USBR was supportive only after the Fraziers approached USBR seeking permission to
move the boat slips. The Fraziers also admitted that the purchase occurred after they received
notification that they won the bid award for Markley Cove and before notification that the June
2007 prospectus was flawed. Linda Frazier stated, “We thought it was a done deal.”

Communications Between USBR and Pensus

Linda Frazier said she called USBR Deputy Area Manager Rick Johnson in July or August 2009
to ask if they were eligible for compensation for all monetary losses incurred, including resort
improvements and consulting costs, because of USBR’s flawed June 2007 prospectus. She said
she specifically remembered Johnson telling her, “Linda, you should fight this all the way to
Washington, DC. You should be fighting the re-bid right now. This is wrong. Pensus should not
be allowed to bid on Markley Cove. Pensus was told why they didn’t get the Markley Cove bid
the first time and was also told what they needed to do to get the bid the second time around.”
The Fraziers stated that sometime during spring 2010, Peter Kilkus, publisher of the Lake
Berryessa newspaper, related to them a conversation he had with a principal of Pensus.
According to Linda Frazier, Kilkus said he told the Pensus principal that he was surprised Pensus
won Markley Cove since the Fraziers were originally awarded the contract, to which the
principal replied, “The first time the Bureau misunderstood and thought we would close Markley
Cove so we didn’t get it. We just had to convince them that that was not our intent.”

USBR Deputy Area Manager Rick Johnson said he did not attend the “winning bidder” meeting
with Pensus. Johnson understood, however, that Pensus asked the review team why it failed to
win the Markley Cove concession. He said the review team explained to Pensus that its original
bid proposal made it less qualified for Markley Cove, but Johnson did not know exactly what
Pensus was told. Johnson emphasized that the purpose for the meeting was to determine if
Pensus was willing to move forward and reformulate its bid for five, rather than six, concession
areas.

Johnson explained that if Pensus had refused to reformulate its bid proposal, USBR would have
re-solicited for those five concession contracts. Johnson reiterated that, at the time, no one from
the review team, within USBR, or SOL knew that the process would have to start over. Johnson
stressed that asking Pensus if it wanted to continue with the bidding process and explaining why
it did not get Markley Cove was all part of the bidding process. Johnson did not corroborate
Linda Frazier’s assertion that there were improper communications between USBR and Pensus,
but rather he reported that he advised Linda Frazier that the bidding process was done
objectively and fairly and that “everything was done according to procedures.”

The former USBR Park Manager stated that she did not provide Pensus with information that
gave them an unfair advantage over the Fraziers or any other bidders. She said that the bid
process was fair and none of the bidders, including Pensus, received information that gave them
any type of advantage.

The SOL Attorney-Advisor said that neither USBR nor SOL showed favoritism in the process to
determine who won the Lake Berryessa concession contracts. He opined that most employees
hoped the Fraziers would win the second bid for Markley Cove because everyone empathized
with them.

The SOL Attorney-Advisor said both Pensus and the Fraziers submitted different proposals in
the second bidding process than during the first. He opined that Pensus “fumbled” some things
on the first bid but corrected them on the second. He did not have any knowledge that USBR
employees assisted or provided any type of inside information to Pensus or other bidders. He
related that the negotiation process had nothing to do with the decision to re-bid the Lake
Berryessa concession proposals.

1 Percent Franchise Fee Clarification

USBR sent the Fraziers, Pensus, and three other bidders a letter in October 2009, after
submission of the second bid proposals, stating that some appeared confused about the
prospectus’ requirement for a minimum 1 percent franchise fee, and that clarification was needed
from each bidder. It also stated that the proposal would be considered a nonresponsive bid if the
bidder did not clarify the franchise fee requirement.

Finnegan related that the new prospectus stipulated that should a selecting official or panel
member need additional information or clarification regarding a bid proposal submittal, the panel
member could request clarification. Finnegan said he sent a letter to each bidder that requested
clarification on the 1 percent franchise fee requirement. Finnegan stated that they were given 2
weeks to comply or risk being considered a nonresponsive bid.

Finnegan remembered that the panel members needed clarification from the Fraziers and all
other bidders, except one. He said that the Fraziers’ proposal needed clarification because it
included a statement that the minimum 1 percent franchise fee could be adjusted at a later date
based on some type of review.

The Fraziers’ second bid proposal stated the following:

       Each such analysis will result in one of three scenarios, including: no change to the
       franchise fee, an increase in the franchise fee, or a decrease in the franchise fee. This will
       ensure that the franchise fee is appropriate, fair, and justifiable to both Reclamation and
       the Offeror.

Linda Frazier said she called each of the other bidders she knew and asked what they put on their
proposal regarding the franchise fee requirement. She asserted that she learned that in the first
prospectus, a bidder was allowed to bid a 0 percent franchise fee. She said the second prospectus
clearly stated that each bid proposal must include a minimum 1 percent franchise fee and that
their second bid proposal clearly stipulated a minimum 1 percent franchise fee. She believed that
every other bidder’s proposal, other than Pensus’, included at least a 1 percent franchise fee. The
Fraziers claimed that Pensus was the only bidder to submit a 0 percent franchise fee and that the
company simply submitted the same proposal as its first bid with prior knowledge that it would
win the Markley Cove concession contract.

The Fraziers believed that Pensus submitted a nonresponsive bid, that its proposal should have
been considered nonresponsive, and that USBR should not have awarded the Markley Cove
concession to Pensus.

On October 7, 2009, USBR sent the Fraziers and Pensus a letter requesting that they clarify their
submitted bid proposal regarding the 1 percent minimum franchise. Linda Frazier responded to
this letter on October 15, 2009. She stated:

       However, this proposal is very important and as such, if any wording in the Prime West
       (Fraziers) proposal is unclear or may somehow be misconstrued, I want to take this
       opportunity to provide a statement of clarification in regard to Prime West’s intentions.…
       In Principal Factor 6, Prime West proposes an initial Franchise Fee of 1% of gross
       receipts. Following the first ten year segment, Prime West proposes that the Franchise
       Fee be reviewed at five year intervals…
On October 13, 2009, Pensus responded to USBR’s letter of clarification. It stated:

       Pensus originally proposed: An ‘Annual Franchise Fee Base Rate’ of 1% of Gross
       Receipts.… No ‘Annual Franchise Fee Base Rate’ to be paid for the first 5 years.…
       Pensus would like to revise its proposal to: An ‘Annual Franchise Fee Base Rate’ of 1%
       of Gross Receipts for the entire term of the contract.

The Pensus and Frazier bid proposals needed USBR clarification, particularly regarding the 1
percent minimum franchise fee requirement. Both Pensus and the Fraziers provided clarification
and, contrary to Linda Frazier’s allegation, Pensus revised its proposal to include the required 1
percent franchise fee.

According to the SOL Attorney-Advisor, if the Fraziers, Pensus, or other bidders did not respond
to USBR’s letter requesting clarification of their bid proposal, their bid would have been
considered nonresponsive. USBR did not send these clarification letters to benefit any particular
bidder. The majority of the bid proposals USBR received during the re-bidding process had
multiple issues and USBR could have disqualified all of them for being non-responsive for one
reason or another.

The SOL Attorney-Advisor said he was heavily involved in the review and approval of the
second prospectus. He said the second prospectus had two significant changes from the first: it
did not include the clause promising to pay the concessionaire at the expiration of the contract,
thus removing the Antideficiency Act issue; and it incorporated a franchise fee, since the first
prospectus did not include one. He stated that not including a franchise fee results in the
Government not receiving any money for the concession, which would technically prevent it
from being a concession. The second prospectus included the franchise fee with the hope that
bidders would bid higher than 1 percent.

The Attorney-Advisor related that because he was not too involved in the first bidding review
process and had limited involvement answering general legal questions during the second, he did
not know why the Fraziers were selected as having one of the best proposals during the first
process and not during the second. He explained that changes to the second prospectus as well as
modifications to the framework of the scoring system – the franchise fee was given more weight
in the second process – may have contributed.

City of Winters’ Participation in the Bid Evaluation Process

John Donlevy, City Manager, City of Winters, CA, said the then-current USBR Park Manager
invited him to serve on a panel of experts as an observer at the beginning of the Lake Berryessa
concessionaire contract re-bid review process in October 2009. Donlevy said he understood that
as long as he agreed to sign a confidentiality form, his participation in the evaluation process
would include his ability to review all of the bid proposals, perform individual scoring, and have
an active role in recommending the winning bid proposal. Donlevy said his expectation for his
promised level of participation was not fulfilled.

After his participation in the evaluation process, Donlevy stated that USBR’s efforts to create a
transparent review process were nothing more than a joke. Donlevy said he could not view any
of the bids or related documents, or be informed of what USBR was reviewing. Donlevy stated
that he was not allowed to participate in any of the discussions and was precluded from attending
confidential discussions or those related to the recommendation of the winning bid proposal.

Donlevy said Finnegan and a Park Manager, USBR, told him that because he represented the
City of Winters, which had a vested interest in the outcome of Lake Berryessa’s concession
contract award, he, or anyone representing Winters, could create a conflict of interest if they
were allowed to review the bid proposals or participate in any of the related discussions. He said
Finnegan and the Park Manager told him that the entire Lake Berryessa concession contract
bidding evaluation process, including Donlevy’s exclusion from important and confidential
discussions and denial to access of bid submittals, was in accordance with USBR policies and
procedures for concessionaire contract bid submittal evaluations.

Donlevy admitted that the entire Federal concessionaire contract evaluation process was new to
him and that he was also unfamiliar with the policies and procedures pertaining to the concession
contract bid evaluation process.

Lucero said USBR invited the City of Winters, CA, to send a representative to attend one or
more of the panel meetings during the initial Lake Berryessa concession contract Request for
Proposal bid evaluation. He remembered that Donlevy sent a representative to participate on the
panel, but the representative was not allowed to review proposals, participate in scoring, or
participate in several discussions regarding recommendations of the bid proposals.

Lucero explained that the primary purpose of limiting participation was to protect bidders’
proprietary information, maintain strict confidentiality of the bid proposals, and maintain the
integrity of the process. Lucero opined that all actions of USBR staff during the first Lake
Berryessa concession contract bid evaluation process was completed according to policy.

Finnegan said he knew Donlevy was invited to observe both bid evaluation processes. Finnegan
told us that Jim Turner, an attorney-advisor in the Office of the Solicitor, was present during the
entire first bid review evaluation, and John Bezdek, a supervisor in the Office of the Solicitor,
was present during the entire second evaluation. In both cases, Finnegan reiterated, the Office of
the Solicitor dictated the level of involvement permitted to Donlevy and other invited observers.

                                         DISPOSITION

The results of this investigation will be provided to Congressman Mike Thompson, 1st District of
California, and USBR.
